IN THE SUPREME COURT OF THE UNITED STATES

MR. AMOS WESTMORELAND, JR. -PETITIONER
vs.
MR. GLEN JOHNSON, WARDEN, AND
COMMISSIONER OF THE DEPARTMENT OF CORRECTION -RESPONDENT(S)

ON A PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

Motion For Leave to Exceed Page Limitation

Mr. Amos Westmoreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (1-1-1 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

RECEIVED
1 0 2020

E OF THE CLERK
OFFICE
SUPREME COUrn; U.S.

Mr. Amos Westmoreland, Jr, hereinafter ("Petitioner"), Pro Se, hereby move under
Supreme Court Rule(s) 10-16, 33-34 for leave to file a Certificate of Writ of Certiorari that
exceeds the 40-page limit.

Petitioner raised 62 Grounds for Relief, and seeks to file a Certificate of Writ of
Certiorari that is.(12ffi pages, which is warranted given the complexity of the legal issues
involved in this action and the significance of the issues that are addressed.

111.
For these reasons, Petitioner respectfully request that this Court grant his Motion for
Leave to Exceed Page Limitation.

This

g(

day of August, 2020.

Mr. Amos Westmoreland, Jr. o Se

2

IN THE SUPREME COURT OF THE UNITED STATES

MR. AMOS WESTMORELAND, JR. -PETITIONER
vs.
MR. GLEN JOHNSON, WARDEN, AND
COMMISSIONER OF THE DEPARTMENT OF CORRECTION -RESPONDENT(S)

CERTIFICATE OF SERVICE

I hereby certify that, on the 01 day of August, 2020, a true and correct copy of this
Motion for Leave to Exceed Page Limitation was sent to Georgia Attorney General
Christopher M. Carr, at the Georgia Department of Law, 40 Capitol Square, S.W., Atlanta,
Georgia 30334-1300, via U.S. mail courier.

Mr. Amos Westmoreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (H-1 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

3

